                The Human Resources Investment Fund Is
                 Not a Cost-Effective Method of Providing
                            Tuition Assistance

                                    March 2005

                       Reference Number: 2005-10-070




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                    DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                           March 31, 2005


      MEMORANDUM FOR CHIEF HUMAN CAPITAL OFFICER



      FROM:                  Pamela J. Gardiner
                             Deputy Inspector General for Audit

      SUBJECT:               Final Audit Report – The Human Resources Investment Fund Is
                             Not a Cost-Effective Method of Providing Tuition Assistance
                             (Audit #200310034)


      This report presents the results of our review of the Human Resources Investment Fund
      (HRIF). This audit was conducted to assess the effectiveness of this tuition assistance
      program in promoting career development, increasing the internal pool of candidates for
      the Internal Revenue Service’s (IRS) critical occupations, and improving the skills of the
      employees who are currently in these positions.
      The HRIF Program Office did not maintain adequate records to track participants or
      assess the Program. As a result, many of the statistics reported about the results and
      benefits of the Program are inaccurate or misleading. The HRIF Program Office
      originally reported the number of promotions and career moves among HRIF Program
      participants as a formal Program measure. However, Program officials later realized
      that the statistics were inaccurate and discontinued reporting these measures in
      Fiscal Year (FY) 2003. The HRIF Program Office also reported on the funds disbursed
      and the “pass rate” of employees receiving tuition assistance. These statistics were
      also inaccurate. The amount spent by the HRIF Program for tuition assistance in
      FYs 2002 and 2003 was $2.8 million, which was only 46 percent of the $6.1 million
      reported to have been “disbursed” on the Program. The HRIF Program “pass rate” was
      reported to be 95 percent; however, this only applied to employees who reported their
      grades. For 57 percent of the courses approved for tuition assistance, employees did
      not report a grade and did not even report as to whether they had ever taken the
      courses. As such, the HRIF Program Office did not know whether employees passed or
      failed the courses and, accordingly, whether to seek reimbursement from employees for
      failed courses, as required.
                                                       2

The HRIF Program does not appear to be a cost-effective method to distribute tuition
assistance. Administrative costs are higher than the actual tuition paid. The cost to
administer the HRIF Program for both FYs 2002 and 2003 was approximately
$4.4 million while the actual tuition assistance provided to employees was only
$2.8 million. There were approximately 31 Full-Time Equivalent (FTE)1 positions
employed to administer the HRIF Program in FY 2002 and approximately 28 FTE in
FY 2003.
The IRS has other existing processes it could use to more effectively distribute tuition
assistance. The IRS has an Individual Development Plan (IDP) process in place which
can be used by every employee. The IDP process allows the manager and employee
to analyze the employee’s skills, identify the employee’s career objectives, list new skills
needed, and outline a course of action to enable the employee to obtain these skills.
Employees facing a Reduction in Force are eligible to participate in the Career
Transition Assistance Program (CTAP), which provides outplacement services,
continuing self-administered education, and the employee assistance program. Unlike
the HRIF Program, the CTAP does not limit the types of classes, the number of classes,
or maximum funding for employees facing a Reduction in Force. Using the CTAP,
employees may select courses that would qualify them for available vacancies in the
IRS that may not necessarily be mission critical, as required by the HRIF Program.
Given that the IRS has appropriate means to allocate tuition assistance through existing
processes to better accomplish the intended objectives of the HRIF Program, we
believe that the IRS should consider eliminating the HRIF Program and redesign its
approach to providing tuition assistance. This will allow the IRS to more effectively use
the resources which have been dedicated to administering this Program.
We recommended that the Chief Human Capital Officer determine the grade and/or
status for all courses approved using HRIF Program funds since FY 2000 to determine
whether any employees are currently liable to reimburse the IRS for courses that were
either failed and/or not completed. We also recommended that the Chief Human
Capital Officer consider eliminating the HRIF Program and implementing an alternative
method of providing tuition assistance.
Management’s Response: IRS management agreed with our recommendations and
proposed corrective actions to address the problems identified in the report. These
proposed actions include reviewing and updating the HRIF Program database for
FYs 2003 and 2004 and seeking reimbursement from those employees who failed or
did not complete their courses. Management will conduct a cost/benefit analysis of this
review and proceed with the examination of additional years if the result is positive.
Management will also consider eliminating the HRIF Program and providing tuition
assistance through alternative means. Management will make new recommendations
in the upcoming contract negotiations with the National Treasury Employees Union for
implementation in June 2006. In addition, management will begin using the IRS’ new

1
 A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable days in a
particular fiscal year. For FYs 2002 and 2003, 1 FTE was equal to 2,088 hours.
                                           3

official training record-keeping system, the Enterprise Learning Management System, to
manage the program in FY 2006.
Management did not agree with the entire $10.7 million in estimated savings we
reported would accrue over 5 years if the HRIF Program is replaced with a more
effective tuition assistance program. Management stated certain costs would still be
incurred, such as costs to process training requests and costs to distribute tuition
assistance funds. As such, management believes our outcome measure should be
reduced to account for these costs. Management’s complete response to the draft
report is included as Appendix V.
Office of Audit Comment: Management provided us with the number of employees,
grade level, percentage of time, and travel costs associated with the HRIF Program,
which we used to develop our administrative cost estimates. Management did not
provide us with a breakout of the time and costs associated with processing requests
and distributing funds. Our outcome measures were based on the best information
management provided us at the time of the report.
Copies of this report are also being sent to IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.
           The Human Resources Investment Fund Is Not a Cost-Effective Method
                           of Providing Tuition Assistance




                                                  Table of Contents


Background ............................................................................................... Page 1
The Internal Revenue Service Cannot Track the Costs of the
Human Resources Investment Fund or Assess Its Benefits...................... Page 3
         Recommendation 1: .......................................................................Page 9

Administrative Costs Are Higher Than the Actual Tuition Paid.................. Page 10
The Human Resources Investment Fund Should Be Replaced
With More Effective Tuition Assistance Methods ...................................... Page 13
         Recommendation 2: .......................................................................Page 16

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 18
Appendix II – Major Contributors to This Report ....................................... Page 21
Appendix III – Report Distribution List ....................................................... Page 22
Appendix IV – Outcome Measures............................................................ Page 23
Appendix V – Management’s Response to the Draft Report ..................... Page 24
        The Human Resources Investment Fund Is Not a Cost-Effective Method
                        of Providing Tuition Assistance

                               After the enactment of the Restructuring and Reform Act
Background
                               of 1998,1 the Internal Revenue Service (IRS) and the
                               National Treasury Employees Union (NTEU) signed a
                               Restructuring Agreement (April 28, 1999). One of the
                               provisions in this agreement was the establishment of the
                               Human Resources Investment Fund (HRIF). The HRIF is a
                               program to provide tuition assistance to IRS employees to
                               promote career development.2 The 2002 National
                               Agreement between the IRS and the NTEU reaffirmed the
                               IRS’ commitment to maintain the HRIF Program. These
                               agreements are binding and enforceable under the governing
                               labor law.3
                               Based on the agreement with the NTEU, the IRS must fund
                               the HRIF Program at no less than 2 percent of the IRS
                               annual training budget. The IRS also funds an additional
                               prorated amount for nonbargaining unit employees. Since
                               Fiscal Year (FY) 2001, the average annual budget for the
                               HRIF Program has been approximately $2.3 million for
                               bargaining unit and $500,000 for nonbargaining unit
                               employees. To allocate the tuition assistance funds, the
                               IRS, in coordination with the NTEU, establishes criteria that
                               employees must meet for acceptance into the Program.
                               The HRIF Program is intended to help employees obtain the
                               courses needed to advance their careers or assist in career
                               transition by helping employees obtain the knowledge and
                               skills needed for other positions within the IRS, especially
                               those occupations considered to be “mission critical,” such
                               as accounting and information technology.4 HRIF Program
                               participants must take the courses on their own time and are


                               1
                                 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                               sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                               23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                               2
                                 Article 10 of the Restructuring Agreement (April 28, 1999).
                               3
                                 5 U.S.C. Chapter 71- Labor Management Relations.
                               4
                                 Mission critical occupations are those job series that are mission
                               critical to IRS frontline operations, which include Appeals Officer,
                               Special Agent, Revenue Agent, Revenue Officer/Settlement Officer,
                               some Engineers and Economists (Large and Mid-Size Business
                               Division), Tax Law, Tax Examiner, Tax Specialist/Tax Compliance
                               Officer/Tax Resolution Representative, Customer Service
                               Representative, and Computer Specialist (Internal Revenue
                               Manual 6.251.1).
                                                                                               Page 1
The Human Resources Investment Fund Is Not a Cost-Effective Method
                of Providing Tuition Assistance

                       limited to a maximum of $1,500 and 4 courses for each
                       participant.
                       The Human Capital Office (HCO) maintains overall
                       Program responsibility and, in partnership with the business
                       units, administers the Program. The IRS and the NTEU
                       sign a Letter of Understanding each year that defines the
                       program areas, prioritizes the funding, and outlines the
                       eligibility criteria and conditions for participation in each
                       program area. Table 1 shows the number of applicants
                       accepted into the HRIF Program for each program area in
                       order of priority for FY 2004.
                           Table 1: HRIF Program Categories and Participants (FY 2004)5
                           Category                              Applicants    Category
                           (In order of priority)                Accepted     Percentage
                           1. Accounting                             997         49.7%
                           2. Information Technology                 262         13.1%
                           3. Information Technology (for non-
                                                                     422         21.0%
                             Information Technology employees)
                           4. Multilingual                           224         11.2%
                           5. E-learning                             102          5.1%
                             TOTAL                                 2,007
                       Source: HRIF Program Office Statistics.

                       This review was performed at the IRS National
                       Headquarters in the HCO and the HRIF Program Office
                       in Methuen, Massachusetts;6 the NTEU office in
                       Washington, D.C.; embedded Learning and Education
                       functions throughout the IRS; the Modernization and
                       Information Technology Services (MITS) organization in
                       Andover, Massachusetts; and the Beckley Finance Center in
                       Beckley, West Virginia. The review was conducted during
                       the period November 2003 through October 2004. The
                       audit was conducted in accordance with Government
                       Auditing Standards. Detailed information on our audit
                       objective, scope, and methodology is presented in
                       Appendix I. Major contributors to the report are listed in
                       Appendix II.

                       5
                        Percentages do not total 100 percent due to rounding.
                       6
                        The HRIF Program Office moved from Methuen to the Andover
                       Campus after our December 2003 visit.
                                                                                 Page 2
          The Human Resources Investment Fund Is Not a Cost-Effective Method
                          of Providing Tuition Assistance

                                 The Government Accountability Office’s publication,
The Internal Revenue Service
                                 Human Capital: A Guide for Assessing Strategic Training
Cannot Track the Costs of the
                                 and Development Efforts in the Federal Government,7
Human Resources Investment
                                 stresses the importance of Federal Government agencies
Fund or Assess Its Benefits
                                 evaluating their own training and development programs to
                                 demonstrate how their training efforts help develop
                                 employees and improve the agencies’ performance. This
                                 publication states, “Because the evaluation of training and
                                 development programs can aid decision makers in managing
                                 scarce resources, agencies need to develop evaluation
                                 processes that systematically track the cost and delivery of
                                 training and development efforts and assess the benefits of
                                 these efforts.”
                                 Since the HRIF Program’s inception in September 2000, the
                                 IRS Commissioner and the NTEU, as well as other
                                 stakeholders, have not been provided reliable and relevant
                                 information about the costs and benefits of the HRIF
                                 Program. As a result, the IRS and the NTEU have not had
                                 an adequate basis with which to determine whether to
                                 continue or modify the Program.
                                 The IRS Strategic Human Resources8 Biennial Report for
                                 FY 2001 and FY 2002 reported that the purpose of the
                                 HRIF Program is to increase the internal pool of candidates
                                 for the IRS’ critical shortage occupations and help retain
                                 employees who are currently in these occupations. To
                                 measure the success of the Program, the HRIF Program
                                 Office reported on the following results:
                                     - Number of HRIF Program students who were
                                         promoted.
                                     - Job transitions to mission critical occupations.
                                     - Number of approved applicants.
                                     - Funds disbursed.
                                     - Students’ pass rate.
                                 Table 2 shows the performance measures that the HRIF
                                 Program Office reported from FYs 2000 through 2003.



                                 7
                                  GAO-04-546G, dated March 2004.
                                 8
                                  The Strategic Human Resources office is now the Human Capital
                                 Office.
                                                                                             Page 3
The Human Resources Investment Fund Is Not a Cost-Effective Method
                of Providing Tuition Assistance

                        Table 2: HRIF Program Performance Measures as Reported to the
                                             IRS Commissioner9

                           Fiscal Years            2000      2001       2002        2003

                           Approved Students        1,540     2,570       2,475       2,680

                           Funds Disbursed         $2.3 M    $2.8 M     $3.1 M       $3.0 M

                           Promotions                                      30%         *
                                                   5% (combined)
                           Transition to Mission
                                                                           12%         *
                           Critical Occupations
                           Student Pass Rate        *          *           95%         95%
                       Source: FYs 2002 and 2003 Business Performance Reviews and the
                       Strategic Human Resources Biennial Report – FY 2001 and FY 2002.
                       *Not Reported.

                       In April 2002, the IRS completed a study which reported
                       5 percent of the HRIF Program participants in the
                       FYs 2000 and 2001 Programs had been promoted to a
                       higher grade or changed to a different series at the same
                       grade. When we requested the data and methodology used
                       to perform the analysis, Program officials responded that
                       they no longer had the data and methodology used.
                       Moreover, the study did not include a comparison to
                       employees who did not participate in the HRIF Program,
                       nor did it show the historical rates of promotion and job
                       transitions within the IRS. In September 2002, the Strategic
                       Human Resources office’s Business Performance Review
                       reported to the IRS Commissioner that 30 percent of the
                       HRIF Program participants had been promoted and
                       12 percent moved into a new job series. The HRIF Program
                       officials later advised us that these statistics were inaccurate
                       and were inadvertently included in the report. In FY 2003,
                       the Strategic Human Resources office discontinued
                       reporting the number of promotions and career moves
                       among HRIF Program participants as a formal performance
                       measure.


                       9
                         Promotions and Transitions were combined for FYs 2000 and 2001
                       into a single percentage of HRIF Program participants covering both
                       years. The percentages reported in FY 2002 were cumulative. Both
                       measures were discontinued after FY 2002. The pass rate was not used
                       prior to FY 2002.
                                                                                    Page 4
The Human Resources Investment Fund Is Not a Cost-Effective Method
                of Providing Tuition Assistance

                       The HRIF Program Office reported there were a total of
                       5,155 approved employees for FYs 2002 and 2003 and
                       employees passed 95 percent of the courses taken in each
                       fiscal year. However, the reports did not disclose that
                       employees only reported they had completed a course and
                       received a grade for 34 percent of the courses and they
                       either withdrew or did not enroll in 9 percent of the courses
                       approved for tuition assistance. The HRIF Program Office
                       had no information on the other 57 percent. The 95 percent
                       pass rate only applies to the students who reported a grade,
                       not the students who were accepted into the Program.
                       The HRIF Program Office also reported that it had
                       “disbursed” a total of $6.1 million for HRIF Program
                       tuition assistance in FYs 2002 and 2003. However, this
                       number represented the funds approved to be spent for the
                       5,155 approved students, not the amount disbursed. The
                       amount actually spent for tuition assistance was just
                       $2.8 million (46 percent of what was reported) for FYs 2002
                       and 2003.
                       The HRIF Program Office did not maintain adequate
                       records
                       The HRIF Program Office was not able to report accurately
                       on the actual employee completion of courses because the
                       information in the HRIF Program database, which is used to
                       maintain historical records and current information on
                       accepted applicants,10 was inaccurate and incomplete. We
                       analyzed an extract of the HRIF Program database for
                       FYs 2002 and 2003. For the 2-year period, the database had
                       no information as to whether the employees completed the
                       courses for 6,507 (57 percent) of the approved courses.
                       Table 3 shows the status of approved courses as recorded in
                       the database.




                       10
                         Approved applicants who notified the Program Office before the
                       end-of-year cutoff that they would not enroll in any of their approved
                       courses were removed from the database or “deactivated.”
                                                                                        Page 5
The Human Resources Investment Fund Is Not a Cost-Effective Method
                of Providing Tuition Assistance

                            Table 3: Status of Approved Courses for FYs 2002 and 2003 as
                                      Recorded in the HRIF Program Database
                                 Status of Approved Courses             FY 2002       FY 2003

                        Passed                                             2,101         1,638

                        Failed                                                60             45

                        Withdrawn*                                           592             60

                        Did Not Enroll*                                                      352

                        Unknown (No Grade Reported)                        3,215         3,292

                            Total                                          5,968         5,387
                       Source: Extract of the HRIF Program FYs 2002 and 2003 database as
                       of April 28, 2004.
                       *In FY 2002, the database did not distinguish between courses in which
                       the student withdrew and courses in which the student did not enroll.

                       Although HRIF Program Officials were aware that there
                       were a significant number of courses with an unknown
                       completion status, they did not know the full extent of the
                       problem. To help determine the status of these courses, we
                       selected a statistically valid sample of the courses with no
                       reported grades.11 We contacted the responsible HRIF
                       Program representatives and requested documentation on
                       the grade or status of the courses. We then reviewed the
                       documents to determine the actual course grade or
                       completion status and used the results of our sample to
                       estimate the number of courses which should have been
                       reported in each category for both fiscal years. Table 4
                       shows the results of the analysis.




                       11
                            See Appendix I for an explanation of our sampling methodology.
                                                                                       Page 6
The Human Resources Investment Fund Is Not a Cost-Effective Method
                of Providing Tuition Assistance

                        Table 4: Status of Courses with No Grade Recorded for FYs 2002
                                    and 2003 in the HRIF Program Database
                         Actual Status of Courses with       Percent of     Total Projected
                             No Reported Grades               Sample         to Population

                        Passed                                   13.85%                   901

                        Failed or Withdrawn                       6.67%                   434

                        Class Taken, No Grade Reported            9.74%                   634

                        Did Not Enroll                           67.18%                 4,371

                        Other*                                    2.56%                   167

                        Total                                      100%                 6,507
                       Source: Extract of the HRIF Program database for FYs 2002 and 2003
                       as of April 28, 2004, and Supporting Documentation from HRIF
                       Program representatives.
                       * Classes still in progress or there was no information available on the
                       status of the classes.

                       HRIF Program participants who do not complete the class
                       or do not receive at least a “C” or “Pass” are required to
                       reimburse the IRS for all costs incurred or obtain their
                       manager’s approval to waive the reimbursement. We
                       estimate that 434 courses were either failed or withdrawn,
                       and an additional 634 classes were taken, but the employee
                       did not report their grade as required. The IRS was not able
                       to provide enough information to determine the percentage
                       of HRIF Program participants who owed money to the IRS
                       but had not paid.
                       In addition, the HRIF Program database included
                       105 courses that were recorded as failures (recorded grade
                       of “D” or “F”). In these instances, the field representatives
                       are supposed to notify the employee’s manager, who is
                       responsible for initiating reimbursement through the IRS
                       Beckley Finance Center. We contacted the Beckley Finance
                       Center staff to determine the reimbursement status for these
                       105 courses. The Beckley Finance Center staff could not
                       locate records for 24 (23 percent) of the failed grades. The
                       HRIF Program database does not include the name of the
                       educational institution or a requisition number; therefore,
                       the Beckley Finance Center did not have the information
                       needed to confirm the failure and determine whether or not
                       the employees were liable for the cost of the courses.
                                                                                       Page 7
The Human Resources Investment Fund Is Not a Cost-Effective Method
                of Providing Tuition Assistance

                       To further evaluate the validity of the data in the HRIF
                       Program database for FYs 2002 and 2003, we also selected
                       a random sample of 125 HRIF Program training records
                       which had information recorded in the following
                       categories:12
                              - Passed classes.
                              - Failed classes.
                              - Withdrawal from class.
                              - Did not enroll.
                       The results of the sample identified 13 errors related to the
                       employee’s grade or participation status. Based on the
                       results of our sample, we estimate there are 629 errors in the
                       database related to the grade or status reported.
                       As we noted previously, for 57 percent of the classes
                       approved in FYs 2002 and 2003, the employees did not
                       report whether they enrolled in the classes. Program
                       officials did not know how many of these classes were
                       actually taken, but our sample indicated that most of them
                       were not taken. Consequently, Program officials did not
                       know how much funding was available for other applicants.
                       Table 5 shows the percentage of HRIF Program funds that
                       have been paid out for tuition assistance.
                            Table 5: FYs 2002 and 2003 HRIF Program Budget and Actual
                                               Tuition Assistance Paid
                                           HRIF Program
                                              Tuition           Tuition       Percentage
                                            Assistance         Assistance     of Budgeted
                                              Budget             Paid         Funds Used

                        FY 2002                $2,800,000      $1,490,554          53%

                        FY 2003                $2,503,025      $1,286,437          51%

                        Totals/Average         $5,303,025      $2,776,991          52%
                       Source: The HCO and an Extract of the Automated Financial System
                       (AFS)13 from the Deputy Chief Financial Officer – Beckley Finance
                       Center.



                       12
                          See Appendix I for an explanation of our sampling methodology.
                       13
                          A computer-based financial accounting system used by the IRS to
                       track appropriations and expenditures.
                                                                                     Page 8
The Human Resources Investment Fund Is Not a Cost-Effective Method
                of Providing Tuition Assistance

                       The fact that 48 percent of the funds were set aside for
                       employees who decided not to participate was unfortunate
                       because of the 3,389 employees that the IRS reported were
                       rejected by the HRIF Program during FYs 2002 and 2003,
                       1,680 were rejected because of insufficient funding.
                       The HRIF Program Manager was aware at the time that a
                       significant number of employees either chose not to
                       participate or to spend less than their approved amount;
                       however, the exact amount was not known because neither
                       the Program Manager nor the HRIF Program representatives
                       followed up with the accepted applicants to determine the
                       status of the classes. The HRIF Program Office attempted
                       to offset the low rate of participation by approving more
                       than the IRS Agreement with the NTEU requires, but only
                       to a limited extent because of uncertainty as to what the
                       actual HRIF Program participation rate would be for those
                       years. Without adequate monitoring of employees’ progress
                       throughout the year, the fund could not be fully used for its
                       intended purpose.
                       Overall, the IRS does not have an adequate follow-up
                       process to determine the status of each employee’s
                       registration and coursework so that the appropriate
                       information can be entered into the HRIF Program database.
                       As a result, the HRIF Program database remains incomplete
                       and inaccurate. Without this data, as well as data on related
                       promotions and transfers, the HRIF Program Manager does
                       not have the information needed to report on the results or
                       assess the benefits of the Program. In addition, the IRS
                       does not always have the information needed to seek
                       reimbursement as required for employees who do not pass
                       the courses for which they have received tuition assistance.

                       Recommendation

                       1. The Chief Human Capital Officer (CHCO) should
                          ensure the HRIF Program database has complete and
                          accurate information including the grade and/or status
                          for all courses approved by the HRIF Program since
                          FY 2000. For courses which were failed and/or not
                          completed, the IRS should request reimbursement from
                          employees as appropriate.
                                                                             Page 9
          The Human Resources Investment Fund Is Not a Cost-Effective Method
                          of Providing Tuition Assistance

                                 Management’s Response: The CHCO agreed to develop an
                                 action plan to update the database for FY 2003 and FY 2004
                                 and to present the plan to the Learning and Education Policy
                                 Sub-council. Management will distribute spreadsheets
                                 identifying the missing grade fields to the embedded
                                 Learning and Education divisions to be updated and will
                                 seek reimbursement from all students who failed or did not
                                 complete their courses. Management will conduct a
                                 cost/benefit analysis of this review and proceed with the
                                 examination of additional years if the result is positive.

                                 The administrative processes associated with the HRIF
Administrative Costs Are
                                 Program are labor-intensive, time-consuming, and costly.
Higher Than the Actual Tuition
                                 The costs to administer the Program are actually much
Paid
                                 higher than the amount paid for tuition. In FY 2002, the
                                 IRS spent an estimated $2.3 million to administer the
                                 $1.5 million it paid for tuition assistance. In FY 2003, the
                                 IRS spent an estimated $2.1 million to administer the
                                 $1.3 million it paid for tuition assistance. Table 6 compares
                                 the estimated administrative costs to the amounts paid for
                                 tuition assistance in each year.
                                      Table 6: Comparison of Estimated Administrative Costs and
                                               Tuition Assistance for FYs 2002 and 2003
                                                                      Estimated        Administrative
                                                      Tuition       Administrative         Cost
                                                     Assistance         Costs           Percentage

                                  FY 2002             $1,490,554         $2,281,057         153%

                                  FY 2003             $1,286,437         $2,137,616         166%

                                  Totals/Average      $2,776,991         $4,418,673         159%
                                 Source: The IRS AFS as of September 20, 2004, and IRS HCO.

                                 There were approximately 31 Full-Time Equivalent (FTE)14
                                 positions employed to administer the HRIF Program in
                                 FY 2002 and approximately 28 FTE in FY 2003. The
                                 requirements of the administrative process include:
                                      •   Establishing Annual Program guidelines and
                                          providing application instructions through the HRIF

                                 14
                                   A measure of labor hours in which 1 FTE is equal to 8 hours
                                 multiplied by the number of compensable days in a particular fiscal
                                 year. For FYs 2002 and 2003, 1 FTE was equal to 2,088 hours.
                                                                                                Page 10
The Human Resources Investment Fund Is Not a Cost-Effective Method
                of Providing Tuition Assistance

                                Program web site and business unit HRIF Program
                                representatives.
                            •   Performing a joint (IRS and NTEU) review of the
                                applications to determine eligibility and acceptance
                                into the Program.
                            •   Notifying applicants as to whether they have been
                                accepted into the Program.
                            •   Answering questions and assisting applicants during
                                the application submission period and in the
                                enrollment process.
                            •   Allocating the funds and accounting for transactions
                                such as tuition payments.
                            •   Tracking participation and course completion.
                            •   Compiling an annual report to the NTEU containing
                                acceptance/nonacceptance data for each applicant.
                       The HRIF Program Office has four full-time employees
                       who are responsible for the day to day administration of the
                       Program, including developing annual Program guidelines,
                       approving students for participation, maintaining the
                       database that tracks students’ progress, and internal
                       reporting. The field representatives and financial plan
                       managers, who are geographically dispersed throughout the
                       country, provide part of their time in support of the HRIF
                       Program.
                       During the 5-week period during which IRS employees
                       apply for acceptance into the Program, 2 NTEU members
                       and 3 IRS employees from the Andover Campus15 jointly
                       review the applications to determine eligibility and rank the
                       applications. For employees who are accepted into the
                       Program, the HRIF Program representatives assist them
                       through the enrollment process, track and monitor their
                       progress, and provide information on the employees’
                       progress to the administrative team. In addition, the MITS
                       organization provides technical support to the Andover
                       Project Team for the HRIF Program database, and overtime
                       is paid to data transcribers who are temporarily assigned to

                       15
                         The data processing arm of the IRS. The campuses process paper and
                       electronic submissions, correct errors, and forward data to the
                       Computing Centers for analysis and posting to taxpayer accounts.
                                                                                  Page 11
The Human Resources Investment Fund Is Not a Cost-Effective Method
                of Providing Tuition Assistance

                       assist the Andover Project Team during the application
                       process.
                       HRIF Program funds are distributed to the financial plan
                       managers of all the business units that have participants.
                       The business unit financial plan managers each manage and
                       track the funds allocated to their business units. The
                       Beckley Finance Center devotes staff to paying vendors,
                       monitoring commitments and obligations, and maintaining
                       debt collection documentation.
                       In addition to the salaries of the employees who administer
                       the Program, there are also related travel overhead costs.
                       Table 7 provides a breakdown of the estimated
                       administrative costs for FYs 2002 and 2003.
                            Table 7: FYs 2002 and 2003 Estimated Administrative Costs
                                                    FY 2002                     FY 2003
                            Cost Category   Staff   FTE     Cost        Staff   FTE       Cost

                        Program Manager       1      1.0    $127,223      1      1.0      $132,504

                        Administration
                                              4      3.5      264,380     3      3.0       236,025
                        Team
                        HRIF Field
                                             44     13.7      877,519    41     12.1       797,229
                        Representatives
                        Financial Plan
                                             24      6.0      564,474    25      5.4       545,476
                        Managers
                        Beckley Finance
                                             11      6.2      326,951    11      6.2       340,519
                        Center

                        NTEU Stewards         2      0.2        9,989     2      0.2        10,404

                        MITS – Andover        1      0.8       67,900     1      0.1         4,715

                        Travel                                 32,525                       29,563

                        Overtime / Data
                                                               10,096                       41,181
                        Transcribers16

                        Totals               87     31.4   $2,281,057    84     28.0   $2,137,616

                       Source: The IRS HCO, Office of Personnel Management General
                       Schedule Locality Pay Tables, and Office of Management and Budget’s
                       Performance of Commercial Activities (Circular A-76).



                       16
                         Cost of overtime and additional transcribers needed during the 5-week
                       student application period. Salaries for data transcribers in FY 2002
                       were not available.
                                                                                       Page 12
         The Human Resources Investment Fund Is Not a Cost-Effective Method
                         of Providing Tuition Assistance

                                The IRS had not previously estimated or monitored the cost
                                of administering the HRIF Program. We contacted four
                                other Federal Government agencies with tuition assistance
                                programs to determine the amount of administrative costs
                                they are paying to administer their programs; however, these
                                agencies advised us they did not monitor such costs and/or
                                could not provide estimates. Notwithstanding, we believe
                                the costs to administer the HRIF Program are far too high.
                                The intent of the administrative process appears to have
                                been to distribute the limited funds in a fair manner in line
                                with the objectives of the Program; however, the cost of the
                                process is not justified in light of the funds provided for
                                tuition assistance. As such, we believe the IRS needs to
                                reevaluate its method of providing tuition assistance.
                                Tuition assistance is a long-term recruitment and retention
The Human Resources
                                tool and a means to improve employee and organizational
Investment Fund Should Be
                                performance, as well as to position employees for mission
Replaced With More Effective
                                critical occupations. The HRIF Program has not
Tuition Assistance Methods
                                demonstrated its performance in accomplishing these
                                objectives, despite the costly structure in place to administer
                                the Program. These objectives could be more efficiently
                                and effectively accomplished through the IRS’ normal
                                process17 for submitting and evaluating training requests.
                                This would reduce the lead time for approval and would
                                allow the IRS to provide funding for only those classes the
                                employee is ready to take.
                                The IRS has an Individual Development Plan (IDP) process
                                in place which can be used by every employee. The IDP
                                process allows the manager and employee to jointly analyze
                                skills already possessed by the employee, identify the
                                employee’s career objectives, list new skills needed to be
                                acquired, and outline a course of action to enable the
                                employee to obtain needed skills to achieve objectives. The
                                IDP process allows employees to follow a path to increase
                                their skills and can be modified as an employee’s career
                                plans change.18



                                17
                                   Request, Authorization, Agreement and Certification of Training
                                (Standard Form 182) - the form used to approve funding for out-service
                                training.
                                18
                                   IRM 1.4.1.7(c).
                                                                                              Page 13
The Human Resources Investment Fund Is Not a Cost-Effective Method
                of Providing Tuition Assistance

                       In the IDP process, the first-line manager’s involvement in
                       the approval, monitoring, and administration process helps
                       to better ensure applicant participation and success, as well
                       as the timely redistribution of funds to support other
                       employees’ IDPs as needed.19 To ensure resources are
                       available to provide tuition assistance through the IDP
                       process, each division could include tuition assistance as a
                       budget item in the annual training plans.
                       In addition, the IRS has implemented an automated training
                       system of record, the Enterprise Learning Management
                       System (ELMS), for managing training delivery and
                       administration. The ELMS has the capability to track
                       employees’ complete training histories and course
                       performance, as well as create an online IDP linked to the
                       employee’s position and individual learning needs. The
                       ELMS can accommodate any training that is included on the
                       IDP. Because this IDP is electronic, there is no need to
                       transfer paper records from manager to manager. In
                       addition, the IRS is currently working with the Office of
                       Personnel Management and other Federal Government
                       agencies to incorporate a new feature that will provide the
                       capability to electronically process requests for out-service
                       training. Currently, the HRIF Program tracking system does
                       not allow Program officials to adequately monitor the
                       students’ progress. The IRS should make optimum use of
                       the IDP process and the capabilities of the ELMS.
                       The HRIF Program restrictions limit the benefits for
                       employees facing a Reduction in Force
                       In the FY 2005 Letter of Understanding, the IRS and the
                       NTEU agreed that employees facing a Reduction in Force
                       receive the highest priority for acceptance into the HRIF
                       Program. However, the HRIF Program imposes limitations
                       on the types of classes, number of classes, and amount to be
                       reimbursed, which limits the benefit of the Program to
                       employees facing a Reduction in Force.


                       19
                         IRM 6.410.1.5(5) states “… a manager’s decision to support an
                       employee’s self-development plans…must always be based on the
                       degree to which the manager believes the employee’s newly acquired
                       experience, knowledge, or skills will enhance organizational
                       performance or meet one of the agency’s mission-related goals.”
                                                                                   Page 14
The Human Resources Investment Fund Is Not a Cost-Effective Method
                of Providing Tuition Assistance

                           •   The types of classes are limited to HRIF Program
                               areas, which are tied to the critical needs of the IRS,
                               not the employee facing a Reduction in Force.
                           •   Employees may receive reimbursement for only
                               4 classes each year, totaling $1,500. This is not
                               sufficient for many employees to qualify for the
                               mission critical positions. For example, to qualify as
                               an Internal Revenue Agent, candidates must possess
                               24 semester hours of accounting and 6 semester
                               hours in a business-related field from an accredited
                               college.
                           •   Employees facing a Reduction in Force have
                               6 months notice before separation action is taken.
                               This is not enough time for most employees to
                               qualify for critical positions supported by the HRIF
                               Program before the separation action.
                           •   The HRIF Program application period and selection
                               of students is in September of each year. This may
                               not coincide with the date of an employee’s
                               Reduction in Force notification.
                           •   Classes frequently require students to complete
                               prerequisite courses before enrolling. For example,
                               a student must successfully complete Accounting I
                               before enrolling in Accounting II. A student would
                               not be able to enroll in all needed classes
                               simultaneously.
                           •   The interest in the HRIF Program for employees
                               facing a Reduction in Force has been limited. For
                               example, when 1,700 employees at the Brookhaven
                               Submission Processing Site faced a Reduction in
                               Force in FY 2003, only 155 (9 percent) submitted a
                               training request before the cutoff date, despite
                               unconditional acceptance into the Program.
                       Employees who are facing a Reduction in Force are eligible
                       to participate in the Career Transition Assistance Program
                       (CTAP), which provides outplacement services, continuing
                       self-administered education, and the employee assistance
                       program. In September 2004, the Senate Committee on
                       Appropriations directed the IRS to minimize involuntary

                                                                              Page 15
The Human Resources Investment Fund Is Not a Cost-Effective Method
                of Providing Tuition Assistance

                       separations by maximizing CTAP benefits, which included
                       providing training and retraining to employees so they can
                       qualify for other positions in the IRS. In addition,
                       Article 51 of the National Agreement with the NTEU
                       requires the IRS to provide Reduction in Force employees
                       with career transition services, including self-administered
                       continuing education/training courses.
                       Unlike the HRIF Program, the CTAP does not limit the
                       types of classes, the number of classes, or maximum
                       funding for employees facing a Reduction in Force. Using
                       the CTAP, employees may select courses that would qualify
                       them for available vacancies in the IRS that may not
                       necessarily be mission critical, as required by the HRIF
                       Program. In addition, employees are eligible for
                       outplacement assistance and career transition services.
                       Instead of dedicating HRIF Program training funds for
                       Reduction in Force employees, the IRS should use that
                       funding to maximize the CTAP benefits to these employees.
                       Given the IRS has the appropriate means to better
                       accomplish the intended objectives of the HRIF Program by
                       allocating tuition assistance through existing processes, we
                       believe the IRS should consider eliminating the HRIF
                       Program and redesign its approach to providing tuition
                       assistance. This will allow the IRS to more effectively use
                       the resources which have been dedicated to administering
                       this Program.

                       Recommendation

                       2. The CHCO should consider eliminating the HRIF
                          Program and provide tuition assistance through
                          alternative means such as the IDP process and the
                          CTAP. The success of this approach should be tracked
                          through the IRS’ official training record keeping system,
                          the ELMS.

                       Management’s Response: The CHCO agrees that a tuition
                       assistance program that is less resource intensive is a
                       preferable alternative to the current HRIF Program.
                       However, the IRS is working under a contractual agreement
                       with the NTEU that requires the Program to continue under
                                                                            Page 16
The Human Resources Investment Fund Is Not a Cost-Effective Method
                of Providing Tuition Assistance

                       its current structure through FY 2006. In FY 2006,
                       management will use the ELMS which will significantly
                       improve their ability to maintain a complete and accurate
                       database and reduce the amount of manual processing time.

                       For FY 2007, management plans to refine the current
                       structure of the HRIF Program. While the outright
                       elimination of the HRIF Program is subject to negotiation
                       with the NTEU, management will assess all available
                       options and make new recommendations in the upcoming
                       contract negotiations for June 2006 implementation. The
                       Director of the HCO Leadership and Education Division
                       and business unit counterparts will present an alternative
                       tuition assistance program to the IRS negotiating team by
                       November 7, 2005.

                       Management did not agree with the entire $10.7 million in
                       estimated savings we reported would accrue over 5 years if
                       the HRIF Program is replaced with a more effective tuition
                       assistance program. Management stated certain costs would
                       still be incurred, such as costs to process training requests.
                       As such, management believes our outcome measure should
                       be reduced to account for these costs.

                       Office of Audit Comment: Management provided us with
                       the number of employees, grade level, percentage of time,
                       and travel costs associated with the HRIF Program, which
                       we used to develop our administrative cost estimates.
                       Management did not provide us with a breakout of the time
                       and costs associated with processing requests and
                       distributing funds. Our outcome measures were based on
                       the best information management provided us at the time of
                       the report.




                                                                             Page 17
           The Human Resources Investment Fund Is Not a Cost-Effective Method
                           of Providing Tuition Assistance

                                                                                                   Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the effectiveness of the Human Resources
Investment Fund (HRIF) tuition assistance program in promoting career development, increasing
the internal pool of candidates for the Internal Revenue Service’s (IRS) critical occupations, and
improving the skills of the employees who are currently in these positions. To accomplish this
objective, we:
I.      Evaluated whether the HRIF Program successfully increased promotions and career
        changes among its participants for the IRS’ mission critical occupations.
        A. Reviewed current policy and procedures governing the IRS’ HRIF Program and all
           documentation related to historical Program guidance, statistics, and implementation.
        B. Interviewed key IRS and National Treasury Employees Union (NTEU) personnel
           involved in the development and implementation of the HRIF Program, budget, and
           annual Letter of Understanding and obtained available laws, regulations, and policies.
        C. Identified the established goals, strategic program plan, and methodology developed
           to measure the effectiveness of the HRIF Program to promote career development,
           increase the internal pool of candidates for the IRS’ mission critical occupations, and
           improve the skills of the employees who are currently in these positions.
        D. Analyzed participant and course information for Fiscal Years (FY) 2002 and 2003
           from Human Capital Office personnel, including the Program Manager and the
           administrative team, the HRIF Program database, and other involved personnel to
           identify the following:
             1. The number of applicants, number of accepted applicants, and number of
                accepted applicants who were deactivated.1
             2. Applicants who fully participated, partially participated, withdrew after
                registration, or level of participation is unknown.
             3. Number of participants who were promoted or moved to a mission critical
                occupation and number of nonparticipants who were promoted or moved to a
                mission critical occupation.
        E. Obtained an extract of the HRIF Program database that included all of the approved
           and disapproved course information for each of the selected applicants who were on


1
  Deactivated – In FYs 2002 and 2003, accepted applicants who notified the Program that they would not participate
(use any of their approved allocation) before September 30, 2002, and September 30, 2003, respectively, were
removed from the database.
                                                                                                         Page 18
           The Human Resources Investment Fund Is Not a Cost-Effective Method
                           of Providing Tuition Assistance

             record as either partially or fully participating in FYs 2002 and 2003 Programs as of
             April 28, 2004.2
             1. Identified the number of approved courses and categorized the courses by grade
                and status: passed, failed, withdrawn (not completed), did not participate (no
                registration), and unknown (no grade reported).
             2. Contacted the Beckley Finance Center to determine the amount paid and the
                employee’s reimbursement status (repaid date, current liability, or reimbursement
                waived) for the courses failed and withdrawn. To the extent possible, we
                identified the unreported failures (and untimely withdrawals) for which the IRS
                should investigate to determine the employee’s liability.
        F. Designed a random attribute sample to determine the accuracy of the reported grades.
           We randomly sampled 125 of the 4,848 courses with a reported grade/status as
           follows: 25 passed and 25 failed in FYs 2002 and 2003;3 25 withdrawn/did not
           participate in FY 2002;4 and 25 withdrawn and 25 did not participate in FY 2003. We
           obtained verification of sampled course grade/status from the embedded Learning and
           Education (L&E) functions, compared records to the HRIF Program database,
           compiled results, and projected the error rate for the population of courses with
           recorded grades based upon a 95 percent confidence level, an expected error rate of
           12.97 percent, and an estimated precision of + 11.28 percent. This sampling
           methodology was developed in consultation with a statistician to estimate the
           accuracy of the reported grades on the HRIF database.
        G. Designed a statistical random attribute sample based on a 95 percent confidence level,
           an expected error rate of 5 percent, and an estimated precision of + 3 percent to
           project the grade/status of courses with no reported grade and to estimate the number
           of failures and untimely withdrawals subject to reimbursement procedures. We
           randomly sampled 197 of the 6,507 courses without a reported grade for FYs 2002
           and 2003. We stratified the population by each fiscal year and selected samples of a
           size proportional to the population from each stratum: 97 of 3,215 and 100 of 3,292
           for FYs 2002 and 2003, respectively. We obtained verification of sampled course
           grade/status from the embedded L&E functions, compiled results, and projected each
           category of grade/status for the population of courses without recorded grades. This

2
  The FYs 2002 and 2003 approved applicants who reported that they would not participate in the Program before
September 30, 2002, and September 30, 2003, respectively, were not included in the extract. The records of these
applicants are separately maintained on “deactivated” lists that were provided by the Program Office.
3
  We stratified the passed and failed populations for FYs 2002 and 2003 and selected 25 samples of a size
proportional to the population from each stratum: Passed – 14 of 2,101 and 11 of 1,638; Failed – 14 of 60 and
11 of 45 for FYs 2002 and 2003, respectively. Due to variance among population sizes for each category of courses
with a grade and a low expected error rate, a statistical sample size was not economical. We, therefore, randomly
selected 25 from each category. Our sampling methodology was developed with the assistance of a statistician.
4
  In FY 2002, the database did not distinguish between those courses from which the participant withdrew and those
where the participant did not register.
                                                                                                         Page 19
           The Human Resources Investment Fund Is Not a Cost-Effective Method
                           of Providing Tuition Assistance

             sampling methodology was developed with the assistance of a statistician to
             determine the grade/status of courses with no reported grade on the HRIF database.
        H. Prepared comparative analyses of the participant and course information found in
           Steps I.D. through I.G. above, identified unusual and questionable items, and assessed
           the variance.
        I. Analyzed financial information for FYs 2002 and 2003 from the Automated Financial
           System, Beckley Finance Center, and other related information to determine the
           original allocation, distribution, obligations, and expenditures. We identified
           overages/shortages in spending and assessed variances.
II.     To evaluate the administrative costs associated with the HRIF Program, we:
        A. Identified the amount of training funds expended for the Program during FYs 2002
           and 2003 as of September 20, 2004 (See Step I.I. above).
        B. Identified the Full-Time Equivalents (FTE),5 salaries, and travel costs incurred by
           HRIF Program Management and Program Office, and the HRIF Program
           representatives and financial plan managers in the business units during FYs 2002
           and 2003.
        C. Identified the FTEs, salaries, and travel costs incurred by the NTEU, Beckley Finance
           Center, and Modernization and Information Technology Services organization staff to
           support the HRIF Program during FYs 2002 and 2003.
        D. Compared the overall administrative costs found in II.B. and II.C. to the actual
           amount of training funds obligated/expended during FYs 2002 and 2003 to determine
           the difference between the administrative costs (indirect) and the training costs
           (direct) for the Program.
III.    Determined whether the HRIF Program is properly aligned with current Federal
        Government rules and policies, and other IRS programs governing career development
        and Strategic Learning Management.
        A. Interviewed key IRS personnel and reviewed current Federal Government policy,
           programs, and documents integral to IRS Strategic Learning Management initiatives.
        B. Identified inconsistencies between the HRIF Program goals, objectives, and
           methodologies and those of other Federal Government and Service-wide strategic
           learning programs.
        C. Evaluated problems and ineffective processes identified in III.B. that may adversely
           affect the overall success of IRS’ Strategic Learning Management initiatives to
           determine cost-effective solutions.


5
 A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable days in a
particular fiscal year. For FYs 2002 and 2003, 1 FTE was equal to 2,088 hours.
                                                                                                        Page 20
         The Human Resources Investment Fund Is Not a Cost-Effective Method
                         of Providing Tuition Assistance

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Michael E. McKenney, Director
Carl L. Aley, Audit Manager
Rosemarie M. Maribello, Lead Auditor
Charles O. Ekunwe, Senior Auditor
Joan R. Floyd, Senior Auditor
James M. Allen, Programmer Specialist




                                                                                      Page 21
        The Human Resources Investment Fund Is Not a Cost-Effective Method
                        of Providing Tuition Assistance

                                                                      Appendix III


                               Report Distribution List

Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief, Appeals AP
Chief, Communications and Liaison CL
Chief Counsel CC
National Taxpayer Advocate TA
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief, Agency-Wide Shared Services OS:A
Chief, Criminal Investigation SE:CI
Chief Financial Officer OS:CFO
Chief Information Officer OS:CIO
Director, Leadership and Education OS:HC:LE
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Chief Human Capital Officer OS:HC




                                                                             Page 22
         The Human Resources Investment Fund Is Not a Cost-Effective Method
                         of Providing Tuition Assistance

                                                                                   Appendix IV


                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Funds Put to Better Use – Potential; $353,720 for overhead and travel associated with
    administering the Human Resources Investment Fund (HRIF) Program (see page 10).
•   Inefficient Use of Resources – Potential; $10,334,360 for salaries associated with
    administering the HRIF Program (see page 10).
Methodology Used to Measure the Reported Benefit:
In Fiscal Year 2003, the Internal Revenue Service (IRS) spent an estimated $2.14 million in
salaries, overhead, and travel funds to administer the HRIF Program. The IRS paid 66 percent
more to administer the Program than it paid in tuition reimbursements under the Program. The
IRS can more effectively meet the objectives of the HRIF Program by using traditional training
alternatives and eliminating the HRIF Program. We projected the $70,744 in annual overhead
and travel costs over 5 years, for a total savings of $353,720. We also projected the $2,066,872
in annual salary costs over 5 years, for a total inefficient use of resources of $10,334,360.




                                                                                            Page 23
The Human Resources Investment Fund Is Not a Cost-Effective Method
                of Providing Tuition Assistance

                                                               Appendix V


          Management’s Response to the Draft Report




                                                                     Page 24
The Human Resources Investment Fund Is Not a Cost-Effective Method
                of Providing Tuition Assistance




                                                                     Page 25
The Human Resources Investment Fund Is Not a Cost-Effective Method
                of Providing Tuition Assistance




                                                                     Page 26
The Human Resources Investment Fund Is Not a Cost-Effective Method
                of Providing Tuition Assistance




                                                                     Page 27
